                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00921-223


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

 Washington DC VA Medical Center 

          Washington, DC 





July 28, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                       CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       IT         Information Technology
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       SPGC       Southern Prince George’s County
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                              CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                       CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of June 9, 2014, at the Southern
Prince George’s County (SPGC) CBOC, Camp Springs, MD, which is under the
oversight of the Washington DC VA Medical Center and Veterans Integrated Service
Network 5.

Review Results: We conducted four focused reviews and had no findings for the
Medication Management and Designated Women’s Health Providers’ Proficiency
reviews. However, we made recommendations in the following two review areas:

Environment of Care. Ensure that:

	   The external signage clearly identifies the building as a VA CBOC at the SPGC
     CBOC.

	   All interior signs clearly identify the route to and location of the SPGC CBOC.

	   The clinic entrance door access is Americans with Disabilities Act accessible at the
     SPGC CBOC.

	   Staff can access the electronic version of the hazardous materials inventory at the
     SPGC CBOC.

	   Signage is installed at the SPGC CBOC to clearly identify the location of fire
     extinguishers.

	   Signage at the SPGC CBOC clearly identifies all emergency exits and that the exit
     signs are visible from any direction.

	   The information technology server closet at the SPGC CBOC is secured according
     to information technology safety and security standards.

Alcohol Use Disorder.       Ensure that Registered Nurse Care Managers receive
motivational interviewing and health-coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                     i
                       CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–19, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                     ii
                           CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                         1
                          CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the SPGC CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
 X     The CBOC’s location is clearly identifiable The SPGC CBOC’s location was not clearly
       from the street as a VA CBOC.                   identifiable from the street as a VA CBOC by the
                                                       address provided by the parent facility.
 X     The CBOC has interior signage available that At the SPGC CBOC, there was no interior
       clearly identifies the route to and location of signage available that clearly identified the route
       the clinic entrance.                            to and location of the clinic entrance.
 X     The CBOC is Americans with Disabilities Act The clinic entrance door hardware at the SPGC
       accessible.                                     CBOC was difficult to grasp with one hand and
                                                       required tight grasping, pinching, or twisting of
                                                       the wrist to operate.
       The furnishings are clean and in good repair.
       The CBOC is clean.
 X     The CBOC maintains a written, current Staff at the SPGC CBOC could not demonstrate
       inventory of hazardous materials and waste how to access the electronic version of the
       that it uses, stores, or generates.             inventory without coaching.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH Clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
 X     The CBOC has signs identifying the locations There were no signs clearly identifying the
       of fire extinguishers.                          locations of fire extinguishers at the SPGC
                                                       CBOC.



VA OIG Office of Healthcare Inspections                                                                  3
                                CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


NM              Areas Reviewed (continued)                                  Findings
 X     Exit signs are visible from any direction.      Emergency exit signs were not visible from
                                                       every direction in the SPGC CBOC.
       No expired medications were noted during the
       onsite visit.
       All     medications     are     secured     from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
 X     The IT network room/server closet is locked.      Access to the IT network room/server closet
                                                          at the SPGC CBOC was not restricted to
                                                          personnel authorized by OIT.
                                                         Access to the IT network room/server closet
                                                          at the SPGC CBOC was not documented.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating      to   emergency      preparedness
       requirements.



VA OIG Office of Healthcare Inspections                                                              4
                                CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


Recommendations

1. We recommended that managers ensure that external signage is installed that clearly
identifies the building as a VA CBOC at the Southern Prince George’s County CBOC.

2. We recommended that managers ensure all interior signs clearly identify the route to and
location of the Southern Prince George’s County CBOC.

3. We recommended that the clinic entrance door access is Americans with Disabilities Act
accessible at the Southern Prince George’s County CBOC.

4. We recommended that managers ensure staff can access the electronic version of the
hazardous materials inventory at the Southern Prince George’s County CBOC.

5. We recommended that signage is installed at the Southern Prince George’s County CBOC
to clearly identify the location of all fire extinguishers.

6. We recommended that signage is installed at the Southern Prince George’s County CBOC
to clearly identify emergency exits from any direction.

7. We recommended that the information technology server closet at the Southern Prince
George’s County CBOC is secured according to information technology safety and security
standards.




VA OIG Office of Healthcare Inspections                                                              5
                                CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We reviewed 40 EHRs and 14 RN Care Managers’ training
records. We also validated findings with key managers and staff. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                       Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       NIAAA guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 7 of 14 RN Care Managers did
       received MI training within 12 months of           not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 3 of 14 RN Care Managers did
       received VHA National Center for Health            not receive health-coaching training within
       Promotion and Disease Prevention approved          12 months of appointment to PACT.
       health-coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

8. We recommended that the CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing training and health-coaching training within 12 months of
appointment to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                              6
                                CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                    Areas Reviewed                                      Findings
       Clinicians    documented      the     medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                              7
                                CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                      Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                              8
                                                                      CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC
                                                                                                                                 Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                      Uniques4                                 Encounters4

                                     Station                 CBOC
          Location          State               Locality5                MH7       PC8      Other9       All       MH7        PC8      Other9       All
                                        #                     Size6
    Fort Belvoir            VA      688GA       Urban       Large       1,533     4,680      2,294      5,360      6,559     9,901      5,987    22,447
    Southern Prince                                         Mid-
    George's County         MD      688GE       Urban       Size          746     2,089      2,039      3,416      2,007     5,285      4,843    12,135
                                                            Mid-
    Charlotte Hall          MD      688GD       Rural       Size          689     2,405      1,505      2,921      2,954     7,157      4,449    14,560
                                                            Mid-
    Landover/Greenbelt      MD      688GC       Urban       Size          236     1,518          729    1,650        610     4,646      1,274      6,530
    Southeast
    Washington              DC      688GB       Urban       Small         251        530         187      653        681     1,864        312      2,857




3
  Includes all CBOCs in operation before March 31, 2013. 

4
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                   9
                          CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                               Tele-Health
           CBOC                                               Ancillary Services12
                                     Services11                                                 Services13
    Fort Belvoir                         ---                    Rehabilitation              Tele Primary Care
                                                                   Nutrition
                                                              MOVE! Program14
                                                                 Polytrauma
                                                                  Pharmacy
    Southern Prince                    Dental                     Audiology                 Tele Primary Care
    George's County                                                Nutrition
                                                              MOVE! Program
    Charlotte Hall                        ---                 MOVE! Program                 Tele Primary Care
                                                                 Social Work
                                                              Health Screening
                                                                  Audiology
                                                                  Pharmacy
                                                                   Nutrition
                                                               Diabetic Retinal
                                                                  Screening
                                                                Rehabilitation
    Landover/Greenbelt                    ---                      Nutrition                Tele Primary Care
    Southeast                             ---                           ---                 Tele Primary Care
    Washington
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                      CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC
                                                                                                                                 Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition. The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
                e

Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                      CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                    12
                                                                      CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                     CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.


VA OIG Office of Healthcare Inspections                                                                                                                   14
                        CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC
                                                                                   Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:        July 07, 2014

          From:         Director, VA Capitol Health Care Network (10N5)

       Subject: 	       CBOC and PCC Reviews of the Washington DC VA
                        Medical Center, Washington, DC

             To:        Director, Bay Pines Office of Healthcare Inspections (54SP)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. I have reviewed the comments provided by the Medical Center
       Director, DC VA Medical Center and concur with the responses and
       actions to the recommendations outlined in the report.

       2. Should you require any additional information, please contact Jeffrey
       Lee, Quality Management Officer, VA Capitol Health Care Network, VISN
       5 at 410-691-7816.



       (original signed by:)

       Fernando O. Rivera, FACHE




VA OIG Office of Healthcare Inspections                                                     15
                        CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC
                                                                                   Appendix D
                              Facility Director Comments



                Department of
                Veterans Affairs                                Memorandum


            Date:        July 1, 2014

          From:          Director, Washington DC VA Medical Center (688/00)

       Subject:          CBOC and PCC Reviews of the Washington DC VA
                         Medical Center, Washington, DC

              To:        Director, VA Capitol Health Care Network (10N5)


      1. Thank you for the opportunity to review the draft report and I concur with
      the OIG recommendations.

      2. Our corrective actions have been established with planned completion
      dates as detailed in the attached report.

      3. If you have any questions please contact Geraldlene Adams, BSN, MBA,
      Director of Quality Management at 202-745-8564.



      (original signed by:)

      Brian A. Hawkins, MHA

      Medical Center Director




VA OIG Office of Healthcare Inspections                                                     16
                       CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure that external signage is
installed that clearly identifies the building as a VA CBOC at the Southern Prince
George’s County CBOC.

Concur

Target date for completion: October 1, 2014

Facility response: The CBOC at Southern Prince George’s is a leased space and
requires necessary approvals when adding both internal and external signage from the
property manager. The DC CBOC Operations Manager is working with the property
manager for additional external signage. The Southern Prince George’s CBOC
property manager made contact with the CBOC Operations Manager about the
placement of street sign on Allentown Road, on May 15, 2014. CBOC Operations
Manager is awaiting a draft from the property manager to ensure signage meets VA
regulations prior to approval.

Recommendation 2. We recommended that managers ensure all interior signs clearly
identify the route to and location of the Southern Prince George’s County CBOC.

Concur

Target date for completion: October 1, 2014

Facility response: The CBOC at Southern Prince George’s is a leased space and
requires necessary approvals when adding both internal and external signage from the
property manager. The DC CBOC Operations Manager will work with the property
manager for additional internal directional signage.

Recommendation 3. We recommended that the clinic entrance door access is
Americans with Disabilities Act accessible at the Southern Prince George’s County
CBOC.

Concur

Target date for completion: July 15, 2014

Facility response: The DC VAMC has contracted with a local locksmith to modify the
entrance door for handicap accessibility.




VA OIG Office of Healthcare Inspections                                                    17
                       CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


Recommendation 4. We recommended that managers ensure staff can access the
electronic version of the hazardous materials inventory at the Southern Prince George’s
County CBOC.

Concur

Target date for completion: June 24, 2014

Facility response: The DC VAMC CBOC Operations Manager provided additional
training CBOC-wide on June 24, 2014, on how to locate the Material Safety Data Sheet
(MSDS) via the medical center homepage. CBOC clinical leads will conduct continuous
random audits to ensure that all staff is knowledgeable and can navigate the MSDS
website.

Recommendation 5. We recommended that signage be installed at the Southern
Prince George’s County CBOC to clearly identify the location of all fire extinguishers.

Concur

Target date for completion: July 1, 2014

Facility response: The DC VAMC CBOC Operations Manager has ordered directional
signage to point visitors and staff to the location of fire extinguishers throughout the
Southern Prince George’s CBOC, as well ensuring that other CBOCs met this
requirement.

Recommendation 6. We recommended that signage is installed at the Southern Prince
George’s CBOC to clearly identify emergency exits from any direction.

Concur

Target date for completion: August 1, 2014

Facility response: The CBOC at Southern Prince George’s is a leased space and
requires necessary approvals when making modification within the clinic from the
property manager. The CBOC Operations Manager has notified the property manager
and they are working together replace the current one-sided visible exit signs with clear
or two-sided visible exit signs.

Recommendation 7. We recommended that the information technology server closet
at the Southern Prince George’s County CBOC is secured according to information
technology safety and security standards.

Concur

Target date for completion: July 1, 2014




VA OIG Office of Healthcare Inspections                                                    18
                       CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC


Facility response: The DC VAMC Office Information and Technology (OI&T) is
developing a list of personnel who should gain access to the CBOC server closets. This
is in accordance to VA Risk Assessment section Appendix B 2d; certifying that the
facility has a list of personnel with authorized access to areas containing information
systems, issues authorization credentials and reviews the list annually. The list will be
distributed to all the DC VAMC CBOCs and the approved listed will be evaluated yearly.

Recommendation 8.          We recommended that the CBOC/Primary Care Clinic
Registered Nurse Care Managers receive motivational interviewing training and health-
coaching training within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: June 24, 2014

Facility response: All current CBOC RN Care Managers who have not received prior
motivational interviewing and health-coaching training within 12-months of appointment
to PACT have been scheduled to complete the trainings. The training schedule has
been in place since before the June 9, 2014 OIG visit.

The schedule was developed by Nursing Education to ensure adequate training classes
are available to ensure on-going training opportunities for both trainings. Nursing
Education will continue to monitor compliance since this will be an on-going PACT
requirement.




VA OIG Office of Healthcare Inspections                                                    19
                       CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Darlene Conde-Nadeau, MSN, ARNP, Team Leader
Contributors            Alice Morales-Rullan, MSN, RN
                        Carol Torczon, MSN, ACNP
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Karen McGoff-Yost, MSW, LCSW
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    20
                       CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Capitol Health Care Network (10N5)
Director, Washington DC VA Medical Center (688/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Benjamin Cardin, Tim Kaine, Barbara Mikulski, Mark Warner
U.S. House of Representatives: 	Gerald E. Connolly, Donna F. Edwards, Andy Harris,
 Chris Van Hollen, Steny H. Hoyer, James Moran, Eleanor Holmes Norton, Dutch
 Ruppersberger, John P. Sarbanes


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                    21
                           CBOC and PCC Reviews at Washington DC VA Medical Center, Washington, DC
                                                                                      Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI)       Program,       Patient    Education:      TEACH       for       Success.    Retrieved     from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
